,A*r*f

i

Daniel Everett (268967)
15 Boardraan Place, suite 2
San Francisco, CA 94103
Telephone: 415.891.9472
Facsimile: 415.864.3389

i

Petitioner, Pro Se

Supreme Court, U.S.
FILED

FEB - 6 2021
SUPREME COURT

OFFICE OF THE CLERK

UNITED STATES OF AMERICA

DANIEL EVERETT
Petitioner.

) No.
) Cal Sup. Ct. No. S2620S0
) Petition for Writ of Certiorari
DATE:
TIME:
DEPT:
Judge:
Court:

TO THE HONORABLE JUSTICES OF THE SUPREME COURT OF THE UNITED STATES,
PETITIONER, DANIEL EVERETT, HEREBY SUBMITS THE FOLLOWING PETITION FOR
WRIT OF CERTIORARI FOR CONSIDERATION.
Dated: June 21, 2021, at San Francisco, CA.
Respectfully Submitted
/s/Daniel Everett
DANIEL EVERETT, Pro Per.

l

Questions Presented
This case involves a facial challenge to State Bar of California
(State

Bar)

rules

which allow the

agency to place

licensees

with

physical or mental disabilities on involuntary inactive status without
requiring that an evidentiary hearing ever be afforded.
California Business and Professions Code

(BPC)

§ 6007(b)(3),

as -

promulgated by the Rules of Procedure of the State Bar of California
(Rules),

5.190-5.212,

disabilities

to

allow the

involuntary

State

inactive

Bar

to move

status

licensees

without

with

affording

a

predeprivation evidentiary hearing on the merits nor a postdeprivation
evidentiary hearing to determine whether the initial move to disability
inactive status was warranted.

Cal. Bus. Prof Code § 6053 allows State

Bar Court Judges, i.e., administrative law judges, to order licensees
subject to § 6007(b)(3)
examinations.

proceedings to undergo physical and mental

Lack of compliance may be used as evidence in determining

whether the attorney should be moved to disability inactive status
pursuant to BPC § 6007(b) (-3).
As a prerequisite to being moved back to active status, an affected
licensee must sign a release allowing the Bar to copy medical and
hospital records related to the licensee's alleged disability and the
licensee's current medical state.

Even then, the State Bar rules still

do not require that a hearing on the merits ever be afforded.
//

•

2

The following Questions are presented:
1. Is constitutional due process of law violated by State Bar rules
that allow the agency to enroll licensees with disabilities on
involuntary inactive status without providing a predeprivation
evidentiary hearing on the merits, nor a postdeprivation
evidentiary hearing?
2. Is constitutional due process of law violated by State Bar rules
that allow the agency to require licensees enrolled on disability
inactive status to provide sensitive medical records as a
prerequisite to being moved to active status, even though an
evidentiary hearing on the merits is not required before placing
the licensee on disability inactive status?

3

LIST OF PARTIES
Daniel Everett
15 Boardman Place, Suite 2
San Francisco, CA 94103
State Bar of California
Danieleverett@danieleverettlaw.com
415.891.9472

State Bar of California
Office of General Counsel
Deputy General Counsel, James Chang
180 Howard Street
San Francisco, CA 94103
James.chang@calbar.ca.gov
213.765.1000

4

TABLE OF CONTENTS

Questions Presented

2

LIST OF PARTIES

4

TABLE OF AUTHORITIES

6

STATEMENT OF BASIS OF JURISDICTION

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

STATEMENT OF THE CASE

12

REASONS FOR GRANTING PETITION

14

CONCLUSION

15

APPENDIX

Cal Sup. Ct. Sept. 9, 2020 Order
Hearing Dept. Order for Inactive Enrollment

A1
A2-19

May 2019 Notice to Show Cause

A20-22

May 2019 Amended Notice to Show Cause

A23-25

August 2019, Status Conf. Order (Hrg. Dept)

A26-27

September 2019, Status Conf. Order (Hrg. Dept)

A28-29

Cal. BPC 6007(b)(3)

A30-33.

(Rel Portions Unabridged)

Cal. State Bar Rules of Proc.

(Rel Portions Unabridged)

Exerpts of Certified Transcripts

A34-48
A49-54

5

TABLE OF AUTHORITIES

Cases
Barry v. Barchi, 443 U.S. 55, 99 S. Ct. 2642 (1979)

15, 16

Statutes
Cal' Bus & Prof. Code § 6007(b)(3)

16, 17

Cal. Bus. & Prof. Code § 6007(b)
Cal. Bus. & Prof Code § 6053

11
2, 10

Constitutional Provisions
U.S Const. Amend V

8

U.S Const. Amend. IX

8

6

•

STATEMENT OF BASIS OF JURISDICTION
This request is for review of a decision of the California Supreme
Court upholding a decision by the State Bar of California, Hearing &
Review Departments, ordering that Petitioner be placed on involuntary
inactive status because of alleged disability. The California
Supreme Court denied Petitioner's request for review on September 9,
2020. App. A1.

i

7

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The following constitutional and statutory provisions are
integral to this case.
5th Amendment, United States Constitution, as applied to the States by
the 14th Amendment:
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.

California Bus. Prof. Code 6007(b)(3):

i

(3) After notice and opportunity to be heard before the State Bar
Court, the State Bar Court finds that the licensee, because of
mental infirmity or illness, or because of the habitual use of
intoxicants or drugs, is (i) unable or habitually fails to
perform his or her duties or undertakings competently, or (ii)
unable to practice law without substantial threat of harm to the
interests of his or her clients or the public. No proceeding
pursuant to this paragraph shall be instituted unless the State
Bar Court finds, after preliminary investigation, or during the
course of a disciplinary proceeding, that probable cause exists
therefor. The determination of probable cause is administrative
in character and no notice or hearing is required.
In the case of an enrollment pursuant to this subdivision,
the. State Bar Court shall terminate the enrollment upon proof
that the facts found as to the licensee's disability no longer
exist and on payment of all fees required.

8

Rules of Procedure of the State Bar of California; Rules governing
promulgation of California Business & Professions Code § 6007(b)(3): 1

Rule 5.190 Nature of Proceeding These rules apply to proceedings
that involve, or may involve, an attorney's transfer to inactive
enrollment under Business and Professions Code § 6007(b)(3).
Rule 5.191 Beginning Proceeding (A) Probable Cause Required. To
begin a proceeding, the Court must determine that there is
probable cause and issue a notice'to show cause. Because the
detejnaination is administrative in character, no notice or
hearing is required.
(B) Motion to Show Cause. (1) The Court may determine on its own
motion, without notice or hearing, that probable cause exists to
issue a notice to show cause; or (2) Any party may file a motion
asking the Court to issue a notice to show cause. The motion
must be served on all opposing parties under rule 5.25. Unless
ordered by the court, no response to the motion may be filed.
(C) Probable Cause Hearing. The Court may order a hearing to
determine whether a notice to show cause should issue if, in the
Court's opinion, it will materially contribute to determining
whether probable cause exists. All hearings will be informal.
Later proceedings will not be invalidated or otherwise
prejudiced if a hearing is not held. (D) Notice to Show Cause.
When a notice to show cause is issued under this rule: (1) the
Court will promptly appoint counsel under rule 5.192 if the
attorney is not represented by counsel; (2) the Clerk will
promptly serve the notice to show cause on all parties under
rule 5.25; (3) each party will file and serve a response to the
notice to show cause within 20 days from the later of: (a) the
date that the notice to show cause is served, or (b) the date
that the order appointing counsel is served (if counsel is
appointed). (E) Judicial Disqualification. Except as provided
under rule 5.46, the judge who conducts the probable cause
hearing will not be disqualified from conducting the hearing on
the merits.
5.192 Representation by Counsel (A) Appointment of Counsel. An
attorney must be represented by counsel by the issuance date of
the notice to show cause. If the attorney is not represented,
the Court must appoint counsel without cost to the attorney. By
court order, appointed counsel will be compensated for

ii

For a full listing of the applicable rules, see appendix, A30, A34.

9

reasonable expenses and fees for work done on matters before the
Court or for seeking review from the California Supreme Court of
a Review Department decision ordering or upholding an order of
inactive enrollment. Compensation will be at an hourly rate
fixed by the Executive Committee. The Court will determine the
reasonableness of counsel's fees and expenses. (B) Copies of
Record. An appointed counsel may ask the Clerk to prepare and
furnish, free of charge, copies of tapes or transcripts of all
or any part of any relevant State Bar Court proceeding involving
the attorney, including any hearing held under rule 5.191(C).
Rule 5.193 Failure to Comply with Order for Physical or Mental
Examination (A) Failure as Probable Cause. If an attorney fails
to obey an order for physical or mental examination issued under
Business and Professions Code § 6053 and rule 5.68 of these
rules, that fact may constitute probable cause to issue a notice
to show cause. (B) Failure as Evidence. After the Court issues a
notice to show cause, if the attorney fails without good cause
to obey an order of the Court for the attorney to undergo a
physical or mental examination issued under Cal. Bus. Prof Code
§ 6053 and rule 5.68 of these rules, that failure may be
considered as evidence in determining whether the attorney
should be transferred to inactive enrollment. But the failure
does not in itself warrant a transfer.
Hearing on Merits (A) Time of Hearing. If a hearing is ordered,
it will be held as soon as practicable after the notice to show
cause is issued. Time will be allowed to appoint counsel, to
prepare a defense, and to complete appropriate discovery or a
physical or a mental examination. (B) Notice. The Clerk must
serve notice of the hearing on the attorney, the attorney's
counsel, and the deputy trial counsel at least 30 days before
the hearing date. (C) Exhibits and Testimony. Exhibits and
testimony from the probable cause hearing will be admissible in
the hearing on the merits if they are relevant and material to
the issues. But: (1) any portion of an exhibit or testimony that
would be inadmissible if offered for the first time at the
hearing on the merits may be objected to; and (2) if prior
testimony is offered, the party offering the testimony must make
the witness available to testify at the hearing on the merits.
Either party may elicit additional direct testimony to
supplement the prior testimony. The witness may be crossexamined by the opposing party.
Rule 5.205 Petition for Transfer to Active Enrollment An
attorney who was transferred to inactive enrollment under Cal.

10

Bus. & Prof. Code § 6007(b) may petition to terminate the
inactive order, with or without interim remedies. The petition
must be verified and must state the facts alleged to warrant the
termination of the order.. The petition must be addressed to the
Hearing Department, filed with the Clerk, and served on the
Office of Chief Trial Counsel under rule 5.25. Eff. January 1,
2011; Revised: January 25, 2019.
Rule 5.206 Medical and Hospital Records The attorney must
authorize the State Bar to examine and copy medical, hospital,
and related records relevant to the attorney's original mental
infirmity, illness, or addiction, and related to the attorney's

present condition. The authorizations must be written and
attached to the petition.
Rule 5.208 Hearing on Petition (A) Requesting Hearing. If the
attorney seeks a hearing on the petition, the petition must
include a request for a hearing. Whether or not the attorney has
requested a hearing, the deputy trial counsel may request a
hearing; such request must be filed within 20 days after service
of the petition.
(B) Order for Hearing. The Court may order a hearing if it will
materially contribute to the Court's determining whether a basis
for the attorney's involuntary inactive enrollment still exists.

The hearing will be held assoon as practicable.

(

C) Notice. The Clerk must serve notice of the hearing on the’
attorney, the attorney's counsel (if any), and the deputy trial
counsel at least 20 days before the hearing date, unless a
continuance is granted for good cause shown.

li

STATEMENT OF THE CASE

Petitioner, Daniel Everett, is a Black-American attorney admitted
to the State Bar of California in February 2010.

In May 2019,

Proceedings were instituted against Everett pursuant to Cal. Bus.
Prof. Code § 6007(b)(3) by the issuance of a Notice to Show Cause.
App. A20-23.

The State Bar Court Hearing Judge ordered that Everett

undergo a gastrointestinal examination and a psychological
examination.

App. A23-24.

Everett objected and argued that the

then proposed examinations, including an evasive gastrointestinal
examination, would be a clear violation of his right to privacy and
his right to make his own medical decisions. App. A23-25..
Everett requested a hearing but the State Bar Court Judge
overruled the request and indicated that she would decide the matter
on written submissions alone; and the State Bar Rules of Procedure
do not require that an evidentiary hearing on the merits before
enrolling a licensee on disability inactive status.

App. A49-54.

See Rule 5.195,(A).1

Rule 5.195 Hearing on Merits (A) Time of Hearing. If a hearing is
ordered, it will be held as soon as practicable after the notice to
show cause is issued. Time will be allowed to appoint counsel, to
prepare a defense, and to complete appropriate discovery or a
physical or a mental examination.
12

On November 27, 2019, the State Bar court issued an order
enrolling Petitioner on involuntary inactive status in case number
19-TT-30212.

The order was amended on December 2, 2019.

The order

became effective on November 30, 2019. App. A2-19.
On or about May 8, 2020, Petitioner filed a petition for Review
with the California Supreme Court - alleging that BPC § 6007(b) (3),
as promulgated through rules 5.190-5.212, constituted a per-se
violation of constitutional due process because licensees were not
afforded a predeprivation evidentiary hearing on the merits, nor
postdeprivation evidentiary hearing on the merits; and licensees
enrolled involuntary inactive under these rules are permanently
deprived of their license unless and until they submit to medical
examinations and release of medical information.

See Rule 5.206.2

On September 9, 2020, the California Supreme Court denied review
of the State Bar Court order, and Petitioner has thus far remained on
involuntary inactive enrollment. App. Al.
Everett has remained on involuntary inactive enrollment despite
never having been afforded a hearing on the merits, and despite never
having been found culpable in any discipline proceeding - ever.

Rule 5.206 Medical and Hospital Records: The attorney must authorize
the State Bar to examine and copy medical, hospital, and related
records relevant to the attorney's original mental infirmity,
illness, or addiction, and related to the attorney's present
condition. The authorizations must be written and attached to the
petition.

13

REASONS FOR GRANTING PETITION

This Court in Barry v. Barchi, 443 U.S. 55, 99 S. Ct. 2642
(1979), held that the due process clause of the United States
Constitution, Amend. V, XIV, is not violated by the temporary
deprivation of the right to practice ones chosen profession, and
without affording a predeprivation hearing on the merits, where there
is a reasonably prompt postdeprivation means of challenging the
allegations that gave rise to the initial deprivation.3
Here, § 6007 (b) (3), as promulgated, constitutes a per se
violation of constitutional due process because a predeprivation
.evidentiary hearing on the merits is not required before enrolling a
licensee on inactive status, nor is a postdeprivation evidentiary
hearing on the merits required to allow for licensees to contest the
initial deprivation.

Barry v. Barchi, 443 U.S. 55, 99 S. Ct. 2642

(1979).4
In Barry, the postdeprivation hearing on the merits was
guaranteed at some point.

No such guarantee exists under the State

Bar rules at issue here.
Once deemed to have a disability pursuant to BPC § 6007(b) (3),
the licensee may only shed that designation by surrendering their
right to otherwise sensitive medical and hospital records - and even
then, the rules do not require that a hearing on the merits ever take
4 The rules clearly do not mandate that a hearing on the merits occur before a
licensee is enrolled as involuntary inactive. See Rule 5.195(aHearing on Merits
(A) Time of Hearing. If a hearing is ordered, it will be held as soon
as practicable after the notice to show cause is issued.
5 Petitioner has been on involuntary inactive status for nearly two
years without being afforded a hearing on the merits, and Section
6007(b)(3), as promulgated, does not require that a hearing ever take
place.
14

place to determine if the initial, or continual, involuntary inactive
enrollment is warranted.
Importantly, the rules do not in any way require that any
pending disciplinary charges, likely premised on the same
allegations or concerns as found in the BPC § 6007(b) (3)
application, be finally determined in an expedited manner.
A30, A34.

App.

Thus, there is quite literally no guarantee whatsoever

that a hearing will ever take place to determine if the allegations
that led to the involuntary inactive enrollment have merit.

8

As seen in Everett's case, the rules act to deprive licensees
of their right to practice law without a hearing and deprive
licensees of professional viability by branding them as having a
disability although no hearing may have taken place to support such
a finding.
Therefore, section 6007(b) (3), as promulgated, is a per se
violation of constitutional due process.
CONCLUSION
Based on the foregoing, Petitioner hereby requests that the Writ
of Certiorari be granted.
JUNE 21, 2021: at SAN FRANCISCO, CA
Respectfully Submitted,
7s/

Dan[iel Everett, Esq.
WORD COUNT:

2725

8

Everett only challenged the allegations in the order for inactive
enrollment to the extent that he requested a hearing- on the merits,
and otherwise averred that all allegations were related to requests
for disability accommodations that were the result of a
gastrointestinal .condition, and where the requests for accommodations
were valid requests made to provide Everett with equal access to
Court proceedings.

15

DECLARATION
I, Daniel Everett, am representing myself in this action and hereby
declare that all statements made here are true and correct and this
pleading is being presented for a just and lawful purpose. Signed
I

under penalty of perjury of the laws of the United States. 6.21.21
/s/lDanie Everet,
V
DANIEL EVERETT, Pro Per.

I

I

1

1

t

I
16

